No.

IN THE
SUPREME COURT OF THE UNITED STATES

L'AWRENCE DOBY WIL'SON,

Petitioner,
vs
UNITED STATES OF AMERICA,
Respondent.
PROOF OF SERVICE
I, Uawrence Doby Wilson, do swear or declare that on this date,
April 16, 2021, as required by Supreme Court Rule 29 I have served
the enclosed PETITION FOR A WRIT OF CERTIRARI on each party to the
above proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to
each of them with first class postage prepaid.
The names and addresses of those served are as follows:
United States Solicitor General
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on April 15th, 2021.
^awrence Doby Wilson

